<html>
<title> - FULL COMMITTEE HEARING ON SMALL BUSINESS AND BROADBAND: AN ENGINE FOR ECONOMIC GROWTH AND JOB CREATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       FULL COMMITTEE HEARING ON 
                     SMALL BUSINESS AND BROADBAND: 
                     AN ENGINE FOR ECONOMIC GROWTH 
                            AND JOB CREATION 

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 12, 2010

                               __________

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                               

            Small Business Committee Document Number 111-067
Available via the GPO Website: http://www.access.gpo.gov/congress/house

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-297 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)


                         STANDING SUBCOMMITTEES

                                 ______

               Subcommittee on Contracting and Technology

                     GLENN NYE, Virginia, Chairman


YVETTE CLARKE, New York              AARON SCHOCK, Illinois, Ranking
BRAD ELLSWORTH, Indiana              ROSCOE BARTLETT, Maryland
KURT SCHRADER, Oregon                W. TODD AKIN, Missouri
DEBORAH HALVORSON, Illinois          MARY FALLIN, Oklahoma
MELISSA BEAN, Illinois               GLENN THOMPSON, Pennsylvania
JOE SESTAK, Pennsylvania

                                 ______

                    Subcommittee on Finance and Tax

                    KURT SCHRADER, Oregon, Chairman


DENNIS MOORE, Kansas                 VERN BUCHANAN, Florida, Ranking
ANN KIRKPATRICK, Arizona             STEVE KING, Iowa
MELISSA BEAN, Illinois               W. TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             BLAINE LUETKEMEYER, Missouri
DEBORAH HALVORSON, Illinois          MIKE COFFMAN, Colorado
GLENN NYE, Virginia
MICHAEL MICHAUD, Maine

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, Pennsylvania, Chairman


HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma, Ranking
BRAD ELLSWORTH, Indiana              LOUIE GOHMERT, Texas

                                 (iii)


               Subcommittee on Regulations and Healthcare

               KATHY DAHLKEMPER, Pennsylvania, Chairwoman


DAN LIPINSKI, Illinois               LYNN WESTMORELAND, Georgia, 
MELISSA BEAN, Illinois               Ranking
JASON ALTMIRE, Pennsylvania          STEVE KING, Iowa
JOE SESTAK, Pennsylvania             VERN BUCHANAN, Florida
BOBBY BRIGHT, Alabama                GLENN THOMPSON, Pennsylvania
                                     MIKE COFFMAN, Colorado

                                 ______

     Subcommittee on Rural Development, Entrepreneurship and Trade

                 HEATH SHULER, North Carolina, Chairman


MICHAEL MICHAUD, Maine               BLAINE LUETKEMEYER, Missouri, 
BOBBY BRIGHT, Alabama                Ranking
KATHY DAHLKEMPER, Pennsylvania       STEVE KING, Iowa
ANN KIRKPATRICK, Arizona             AARON SCHOCK, Illinois
YVETTE CLARKE, New York              GLENN THOMPSON, Pennsylvania

                                  (iv)
















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Graves, Hon. Sam.................................................     2

                               WITNESSES

Burfield, Mr. Evan, Chairman and CEO, Synteractive Corporation, 
  Washington D.C.................................................     3
Messere, Mr. Steve, Founder and CEO, Revenue Spark Inc., New 
  York, NY.......................................................     6
Whisenant, Mr. Greg, Founder and CEO, CrimeReports, Draper, UT...     7
McDonald, Mr. Tom, CEO, BeSafe, Hyannis, MA......................    10
Dofelmier, Ms. Lindsay, Co-Owner, Urban Agent Team LLC, Boise, ID    12

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    25
Graves, Hon. Sam.................................................    27
Burfield, Mr. Evan, Chairman and CEO, Synteractive Corporation, 
  Washington D.C.................................................    29
Messere, Mr. Steve, Founder and CEO, Revenue Spark Inc., New 
  York, NY.......................................................    36
Whisenant, Mr. Greg, Founder and CEO, CrimeReports, Draper, UT...    44
McDonald, Mr. Tom, CEO, BeSafe, Hyannis, MA......................    49
Dofelmier, Ms. Lindsay, Co-Owner, Urban Agent Team LLC, Boise, ID    52

Statements for the Record:
The National Cable & Telecommunications Association..............    55

                                  (v)

  


                       FULL COMMITTEE HEARING ON
                     SMALL BUSINESS AND BROADBAND:
                     AN ENGINE FOR ECONOMIC GROWTH
                            AND JOB CREATION

                              ----------                              


                        Wednesday, May 12, 2010

                     U.S. House of Representatives,
                               Committee on Small Business,
Washington, DC. The Committee met, pursuant to call, at 1:00 p.m., 
  in Room 2360 Rayburn House Office Building, Hon. Nydia Vel zquez 
 [chairwoman of the Committee] presiding. Present: Representatives 
                        Vel zquez, Dahlkemper, Altmire, and Graves.
    Chairwoman Velazquez. This hearing is being called to 
order. Just as the interstate highway system revolutionized 
American commerce, today we are presented with a similar 
challenge. Building a nationwide broadband infrastructure is an 
equally ambitious task, and it is just as fundamental to our 
prosperity in the Twenty-First Century.
    Over the next decade, we can expect the growth of this 
field to produce good-paying jobs for millions of Americans. 
The number of jobs dependent on broadband and IT are expected 
to grow by 25 percent over the next 10 years, creating 
opportunities for large and small companies in every sector of 
the U.S. economy.
    While building a nationwide broadband infrastructure will 
be vital to our economy's long-term health, deploying this 
technology also carries immediate economic benefits, at a time 
when our nation needs every job we can find. Some have 
estimated that over the next 4 years, we will see 30,000 jobs a 
year from the broadband investments funded through the Recovery 
Act alone.
    Beyond the immediate payoff, widespread broadband adoption 
will mean new economic opportunity for communities across the 
nation. Small businesses already benefit enormously from the 
Internet. For Americans looking to launch a new enterprise, 
broadband offers lower start-up costs. This is especially 
important now, as many dislocated workers are looking to 
entrepreneurship as a way to replace lost income.
    For the established small business, high speed Internet can 
expand a firm's client base using a company website, social 
networking, or other forms of online advertising. Firms can 
utilize voice and video communication as a low-cost method to 
connect with customers around the world and reach previously 
untapped markets. They can store data online, access office 
productivity tools, and even improve the energy efficiency of 
their business.
    The FCC recently released a National Broadband Plan, an 
ambitious initiative aimed at accelerating the adoption of high 
speed Internet. Bringing the public and private sector 
together, the plan offers steps to accelerate the rollout of 
broadband and help small businesses embrace these benefits. 
Although three-quarters of small businesses currently have a 
website, only one in four sell their products using e-commerce. 
In today's global economy, that is simply not good enough.
    The National Broadband Plan could help narrow this gap, 
creating additional growth opportunities for small companies. 
As this plan is refined and implemented, the Committee will 
need to ensure that entrepreneurs' needs are kept top of mind.
    Putting broadband in more American homes and businesses is 
just one part of the equation. The Internet has always served 
as an unparalleled laboratory for innovation and 
entrepreneurship.
    If we are to reap the full benefits of this economic 
engine, it is vital that the Internet remain a platform where 
free speech and new ideas flourish and consumers can connect 
with whomever they choose while accessing services of their 
choice.
    Just last week, the FCC released a new framework aimed at 
preserving this freedom without discouraging investment in our 
nation's broadband infrastructure. In coming weeks, the 
strengths and weaknesses of this initiative will receive 
significant consideration. Small businesses have much at stake 
in how the debate plays out. It is my hope that today's 
discussion will shed light on what these policies mean for 
online entrepreneurism.
    The business owners before us today highlight the variety 
of opportunities created by broadband. I look forward to 
hearing their thoughts on how broadband is empowering America's 
small businesses now and how Congress and the FCC should take 
their needs into account as we craft policies that will shape 
the Internet's evolution for decades to come.
    With that, I thank all of the witnesses for being here 
today and yield to Ranking Member Mr. Graves for an opening 
statement.
    Mr. Graves. Thank you, Madam Chair, for holding this 
important hearing on the impact that broadband is going to have 
on the economy and its ability to foster Internet growth.
    Technology and the ways we communicate with one another are 
constantly evolving. You know, 150 years ago we had to elicit 
the help of the Pony Express to deliver what would inevitably 
take days to travel from a place like St. Joe, Missouri to San 
Francisco. Today we can send an entire book as a .pdf file 
through the e-mail and rest assured that file is going to be 
received across the globe in just a matter of seconds.
    To do research 50 years ago, we had to go to the public 
library and hope it had the materials that we needed. Now you 
can log onto your computer and access more information than the 
Library of Congress can even contain.
    If you wanted to buy something 20 years ago, you probably 
had to get into your car and go to a nearby store. Thanks to 
online shopping, we can now simply log onto our computer and 
virtually buy any product from businesses, large and small, 
from across the globe.
    We are all aware of the limitless services technology and 
the Internet provide to our daily lives. We tend to forget that 
these everyday conveniences would not be available if it 
weren't for the contributions of small businesses, like those 
that are represented here today.
    The change from molasses-like dial-up connections to warp-
speed downloads comes from technological innovations in network 
architecture. From DSL to cable modems, to fiber optics to-the-
home, the continued development and improvement of the Internet 
relies on the investment of billions of dollars by private 
sector enterprises.
    Unfortunately, the Internet and related technologies are 
not as widespread as we would like to think. And there is a 
severe lack of appropriate infrastructure that limits many 
American communities, businesses, and families from gaining 
full access to these services.
    Rural areas in many states are particularly likely to lack 
the infrastructure needed to allow them to benefit from this 
vital technology. Without access to affordable broadband 
services, the economies and development of these communities 
are going to suffer.
    With other policies that this government adopts with regard 
to technology and broadband, we must first make a commitment to 
ensuring that small businesses in rural communities will 
benefit from the infrastructure investment.
    Regulatory policies that diminish the incentive for such 
private sector investment will benefit neither small businesses 
nor the economy that will rely on them for the growth needed to 
create jobs.
    I look forward to hearing testimony from our witnesses 
today on the use of broadband and the access that is going to 
enable the creation of a lot of new jobs and the policies 
needed to maintain America's lead in technology. I appreciate 
you all being here today. And I know some of you traveled from 
a long ways. Thank you.
    Chairwoman Velazquez. Well, with that, I welcome all of the 
witnesses. Our first witness is Mr. Evan Burfield, who is the 
Chairman and CEO of Synteractive Corporation. Mr. Burfield 
previously founded NetDecide, a company that provides wealth 
management solutions. He co-founded Synteractive in 2003, which 
is a strategy and business solutions consulting firm.
    You will have five minutes to make your statement. Welcome.

  STATEMENT OF EVAN BURFIELD, CHAIRMAN AND CEO, SYNTERACTIVE 
                          CORPORATION

    Mr. Burfield. Chairwoman Velazquez, Ranking Member Graves, 
and distinguished members of the Committee, as the Chairwoman 
says, my name is Evan Burfield, and I would like to thank you 
for holding this important hearing on the role broadband plays 
in driving innovation and creating economic growth and new 
jobs.
    I am the President and CEO of Synteractive, a company 
dedicated to solving the really big problems in the world 
involving connecting people and information.
    Broadband, together with instantaneously scalable cloud 
computing and interoperable applications, serves as a linchpin 
for creating the future of business. The media and the man on 
the street has a feeling that the Internet is changing the way 
products and services get to market, but today I will walk you 
though the facts.
    The first thing to know is that today's broadband and the 
tools it powers are enabling innovative small businesses to 
out-compete larger competitors.
    In 2009 Synteractive was a key part of the team that won 
the contract to rebuild Recovery.gov, which Newsweek has 
referred to as ``perhaps the clearest, richest interactive 
database ever produced by the American bureaucracy.''
    Synteractive, along with our partners Smartronix, TMP 
Government, and KPMG, was able to build the entire platform in 
less than ten weeks for around six million dollars. Within a 
few days of kicking off the effort, we created a development 
environment using Amazon Web Services, which provided us with 
access to vast, instantly scalable computing resources for a 
few thousand dollars per month.
    We built Recovery.gov with platforms such as Microsoft 
SharePoint and FAST Search because they were off the shelf and 
interoperable, allowing us to focus on design and innovation, 
rather than recreating the wheel.
    We wanted the site to help citizens find a recovery job. So 
we created a tool in less than a day using Microsoft Bing 
search service that enabled citizens to search for jobs across 
companies that received recovery funds. Similarly, we made 
Recovery.gov available in over 50 languages in a few days by 
snapping Google Translator into SharePoint
    To build a platform like Recovery.gov 10 years ago would 
have been a $100 million effort and would have by its very 
nature been done by a company like IBM or Lockheed Martin. Our 
team was able to create an innovative solution using tools from 
a wide variety of vendors faster and more efficiently than 
Lockheed of ten years ago ever could have. Simply put, small 
businesses have never been more able to punch so far above 
their weight.
    While I am very proud of my company's success with 
Recovery.gov, we have our eyes on a larger target: creating a 
set of online services that provide other businesses with the 
kind of power that we have at Synteractive.
    Synteractive has clients ranging from Recovery.gov to the 
American Petroleum Institute to Microsoft. We have grown our 
revenue from $150,000 in 2006 to nearly $6 million last year. 
We have the latest in software and communications tools 
available to us from the way we collaborate to managing our 
sales process to keeping our books straight.
    What is more interesting, though, is what we don't have. We 
don't have a receptionist because an online service 
automatically routes calls and delivers voice mails to us as e-
mails wherever we are in the world. We don't have computer 
servers humming away in our office because everything occurs on 
demand in the cloud delivered by broadband. Because we don't 
have servers, we haven't had to hire a systems administrator.
    We are a lean business, where every person we hire is 
focused on driving innovation for our clients. As a result, we 
can offer superior talent and solutions at competitive rates.
    Synteractive is working with one of America's leading 
broadband companies and Microsoft to bring this kind of 
efficiency to other businesses, particularly small businesses.
    We are creating online services that provide the core tools 
a small business needs, built on Microsoft technologies, and 
delivered as a bundle along with broadband Internet access.
    The innovation enabled by broadband is critical because it 
drives efficiency. Efficiency is critical because it makes 
small businesses leaner; more competitive; and more flexible; 
and, therefore, more resilient to economic downturns; and 
responsive enough to drive growth as economic conditions 
improve.
    Congress should continue to take steps to keep this engine 
of economic growth humming. First, Congress deserves tremendous 
credit for the support already given for making broadband 
pervasive across America through legislation such as the 
Recovery Act. It is critical for our democracy and our economy 
that every American, regardless of where they live, should have 
access to cheap and reliable broadband.
    Second, it is of the utmost importance that small 
businesses in America have a level playing field to compete and 
win. I know Congress and policy-makers are playing close 
attention to net neutrality. And the members of this Committee 
are more attuned to the ongoing policy debate than I am. But as 
an entrepreneur, I would encourage policy-makers to steer clear 
of foreclosing new business opportunities for small businesses.
    Third, broadband and small businesses are a powerful engine 
for job creation, but it is important to understand that these 
jobs require education and skill. Talent is a fuel that drives 
small businesses like Synteractive. We require people who 
understand strategy, economics, analysis, design, and 
engineering. Regardless of experience, we demand a solid 
foundation in rigorous thinking, scientific and engineering 
knowledge, and the ability to write and communicate clearly. 
Small businesses simply aren't creating many jobs relevant for 
mushy thinking, poorly educated people.
    Therefore, the final step that Congress should take to 
ensure that broadband and technology continue to be an engine 
for job creation is to improve the quality of education in 
America.
    Chairwoman Velazquez, Ranking Member Graves, and 
distinguished members of the Committee, thank you for your time 
and consideration on this important topic.
    [The statement of Mr. Burfield is included in the 
appendix.]

    Chairwoman Velazquez. Thank you, Mr. Burfield.
    Our next witness is Mr. Steve Messere. He is the founder 
and CEO of Revenue Spark, located in New York. Revenue Spark 
provides business services to a wide variety of sustainable 
growth companies.
    Welcome, sir.
    Mr. Messere. Thank you. Thank you, Chairwoman Velazquez, 
Ranking Member Graves, members of the Committee.

STATEMENT OF STEVE MESSERE, FOUNDER AND CEO, REVENUE SPARK INC.

    Mr. Messere. My name is Steve Messere, and I am the founder 
and CEO of Revenue Spark. Revenue Spark is a company that is 
dedicated to creating and fostering relationships between 
sustainable technology companies. These are companies that are 
creating new opportunities on an almost daily basis through the 
spirit of invention and innovation and, as it is traditionally 
defined, what it means to be an American. Just like railroads, 
telegraph and telephone transformed the American business, 
broadband is similarly transforming the way Americans do 
business today.
    Revenue Spark is the world's first sales outsourcing firm 
to dedicate our entire focus to helping sustainable technology 
companies succeed in a marketplace. We do this through a 
combination of new technologies that didn't even exist five 
years ago.
    The core of our operation is domestic sales outsourcing. 
Domestic sales outsourcing avoids the pitfalls of hiring new 
business development staff. The typical hiring procedure yields 
a failure rate of over 50 percent in the first six months. And 
for a new business, this can be easily mean the difference 
between success and failure.
    Domestic sales outsourcing also transfers the time-
consuming tasks associated with research and establishing leads 
and doing the development work that can oftentimes keep a 
company from succeeding. So the challenge of most businesses is 
deciding how to staff a team that can overcome these hurdles 
and provide reliable and repeatable revenue.
    We are in the midst of a real paradigm change in how 
computer information is handled. Again, five years ago, 
individuals were dependent on their own personal computers to 
save and store their information. Now that information is 
increasingly shared over far-flung computer networks.
    This is the cloud computing. And it means instantaneous 
cooperation is now possible between different individuals 
regardless of where they might be located. And this translates 
into increases in productivity.
    As we all know, increased productivity means a better 
bottom line. And a better bottom line means more and better 
jobs. Whether this happens via SalesForce, Google Documents, 
Skype, Jigsaw, Web Conferencing, Twitter, iPod, all of these 
things are the numbers of new technologies. It all means the 
same thing, which we are changing the way we do business, 
almost on a daily basis. And all of these technologies rely on 
fast, reliable, and accessible broadband.
    The Internet removes these economic barriers. So that at 
Revenue Spark, we are, in effect, a virtual company. For us, 
the term ``company headquarters'' is almost irrelevant. We do 
almost everything via telecommuting.
    All the members of the Revenue Spark sales development team 
have a proven track record of being successful in sales 
outsourcing. In addition, all those members have spent an 
average of over 15 years working. But they need these tools. So 
telecommuting allows us to attract the best at their best. And 
it is an the advantage for us and for society in these 
following things.
    It provides fuller employment; less strain on 
infrastructure; increased productivity; reduction in turnover 
and absenteeism; reduction in carbon footprint and energy use; 
an expansion of our talent pool; and, one of the most important 
things, it helps us put recently displaced people back to work 
because they're not limited by the geography that they face.
    So what I think we want to conclude with is that small 
business and medium-sized companies are the engines of economic 
growth in the United States today. They are dependent on the 
Internet to bring their ides to market. Broadband is the new 
Main Street and not just Main Street U.S.A. but everywhere in 
the world.
    For us at Revenue Spark, the Internet is an indispensable 
tool for what we do and what we do best, which is tell stories, 
because that is what we really do, we tell a story, a true 
story, about new technologies and about the boundless creative 
accomplishments of American innovators. And that story is as 
old as America itself.
    There is a new chapter that is being written, even as we 
sit here, a tale of otherwise undiscoverable technologies and 
how America can flourish and grow in a way that is sensible, 
sustainable and, yet, preserves our precious resources for our 
children and children's children, not just here in the U.S., 
but all over the world. And for all over the world, it is, of 
course, a story about jobs, very good jobs. And we use 
websites, and we use these tools to make that possible.
    Given a choice today between having telephone service or 
Internet, the vast majority of companies we work with would 
choose the Internet without hesitation. And that is the very 
definition of the sea change that we are faced with here today.
    All of these tools that we have talked about and more serve 
to increase efficiency, which means a better bottom line, which 
means more jobs, good jobs, the jobs of today and tomorrow, not 
the jobs of yesterday.
    Chairman Velazquez, Ranking Member Graves, and members of 
the Committee, thank you for this opportunity.
    [The statement of Mr. Messere is included in the appendix.]

    Chairwoman Velazquez. Thank you.
    Our next witness is Mr. Greg Whisenant.
    Mr. Whisenant. You got it. Thank you.
    Chairwoman Velazquez. He is the founder and CEO of 
CrimeReports in Draper, Utah. CrimeReports is the largest 
online resource for crime information, offering software tools 
for law enforcement agencies.
    Welcome.
    Mr. Whisenant. Thank you. Thank you, Chairwoman Vel zquez, 
Ranking Member Graves and members of the Committee.

   STATEMENT OF GREG WHISENANT, FOUNDER AND CEO, CrimeREPORTS

    Mr. Whisenant. My name is Greg Whisenant. I am the founder 
and Chief Executive Officer of Public Engines, Inc. We make the 
CrimeReports.com website.
    I founded CrimeReports.com in 2007. And as of today, we 
work directly with nearly 1,000 law enforcement agencies 
throughout the country to build the National Crime Map, which 
would give every American free access to street-level crime 
information within 24 hours of its occurrence.
    We sell a monthly subscription to law enforcement agencies 
under a software as a service model. We have a single instance 
of software code on the Internet that works with nearly any law 
enforcement agency's existing technology systems.
    We don't sell hardware, software licenses, or maintenance 
contracts. We do everything from the Internet. So we are very 
capital-efficient. Our prices are often 1/100th of what our 
competition charges. So we have enjoyed exceptional growth in 
just three years.
    We work with law enforcement agencies in most of the 
districts represented by the members of the Committee here. We 
cover more than 20 percent of the U.S. population.
    I would like to emphasize four key observations in my 
testimony today. Observation number one, CrimeReports is a 
small business that uses technology and increasingly broadband 
to compete effectively and create jobs.
    Like many other companies in the United States, without the 
Internet, CrimeReports.com would not exist. And, with it, we 
have seen exceptional growth. We currently have 41 employees, 
of which 30 were hired in 2009, mostly in sales and software 
engineering.
    The users of our service are not just law enforcement 
agencies but ordinary members of the public, whose ability to 
gain access to street-level crime data is made easier with 
Internet access. This is particularly important in public 
safety, where members of the public can change their behaviors 
to protect themselves, their families, and their property if 
they know what types of crimes are happening.
    My company's service does not rely specifically on 
broadband. However, as we have grown to support this vast 
network of agencies, our customers tell us that we could help 
them with new bandwidth-intensive applications. The limitations 
of these advanced applications are constrained by technology in 
that the entrance fee to the toll road is simply too high. 
Although the invisible hand will solve many of these problems 
over time, we can move the needle in a meaningful way with a 
vision of where we are heading and a concerted effort to get 
there.
    Observation number two, broadband is vital infrastructure 
for technology and non-technology companies alike. And as an 
equalizer in business, it encourages innovation that benefits 
consumers.
    Like other conditions, such as education, access to 
capital, and a market that is largely unencumbered from 
excessive regulation, widespread access to broadband is a 
critical ingredient in economic recovery, and more so for long-
term economic prosperity. It lowers the barriers to entry for 
people to create new and innovative technologies. It lowers 
costs for the delivery of content. It democratizes 
participation in the economy for entrepreneurs with new and 
exciting ideas.
    When I started CrimeReports.com, we had virtually no direct 
competitors. As we started to grow quickly to expand the 
National Crime Map, several existing software companies began 
to pay attention and released competitive products. The 
Internet and broadband were tools that we used to drive down 
the cost of providing our service, and soon other companies 
used these same tools.
    Today we are focusing on efficiency, growing quickly and 
optimizing our processes, but ultimately it is the consumers of 
our service, local law enforcement agencies, that are the clear 
winners in this textbook competitive market, where private 
companies are working to create the most value at the lowest 
price.
    By any measure, widespread access to broadband is an 
accelerator to efficiency. Those economies that achieve the 
highest level of broadband penetration will be the first to 
create the new efficient services that will take advantage of 
these high capacity networks and will have an advantage in the 
long run.
    Observation number three, widespread access to broadband is 
a proxy for other types of investments in the economy. Part of 
the mandate of government is to foster conditions that will 
contribute to a strong and vibrant economy.
    During the economic downturn, much of the focus has been on 
stabilizing components of the economy whose failure would have 
had catastrophic consequences. Substantial resources have also 
been devoted to creating economic stimulus through various 
fiscal and monetary policies, including direct investment in 
key industries, and in many cases directly in specific 
companies.
    Unlike other types of investment, renewed commitment to and 
investment in broadband is more like lowering interest rates. 
It is meaningful to all players and simply accelerates the 
timeline toward greater efficiency and innovation.
    Observation number four, widespread access to broadband is 
a driver in open, participatory government, as the President 
has envisioned. In connection with its economic contribution, 
widespread access to broadband will put entire communities and 
individuals on more even ground, not just in their ability to 
gain access to information but also in their ability to 
contribute and innovate in unexpected, creative ways.
    Government 2.0 is an emerging current example of how when 
coupled with the right political leadership, the investments we 
have made in technology can break down socioeconomic barriers 
and involve our democracy into one that is more transparent, 
collaborative, and participatory.
    Government 2.0 is a recognition that in many cases today's 
problems are too complex to solve alone, either as legislators, 
administrators of government agencies, ordinary citizens or 
private companies. We need to create the attitudes and 
technological vehicles that will facilitate contributions from 
experts and knowledgeable individuals to get to the best 
answers.
    Fortunately, many of these technology systems are being 
established, but they are limited in their reach and could be 
vastly improved and accelerated with a more expansive 
deployment of broadband.
    As it has always done, the American economy needs to push 
through a continuous cycle of create, destroy, and repeat 
innovation to remain competitive. Among other technologies, 
broadband will be a driver.
    Thank you.
    [The statement of Mr. Whisenant is included in the 
appendix.]

    Chairwoman Velazquez. Thank you.
    Our next witness is Mr. Tom McDonald, the CEO of BeSafe 
Technologies, a company located in Hyannis, Massachusetts. 
BeSafe Technologies is a small business that has developed an 
emergency response tool that assists first responders.
    Welcome.
    Mr. McDonald. Chairman Velazquez and Ranking Member Graves, 
Committee members, thank you very much for the opportunity to 
speak with you today.

             STATEMENT OF TOM McDONALD, CEO, BeSAFE

    Mr. McDonald. I am the CEO of BeSafe Technologies. And our 
corporate headquarters is on Cape Cod. That is because I want 
to keep my feet in the sand.
    Our focus is clearly and has been on public safety. As a 
matter of fact, our company was founded by the Associate 
Commissioner for Public Safety from the Commonwealth of 
Massachusetts back in the '90s. And I joined with him. I was 
the Superintendent of Schools in the Town of Barnstable on the 
Cape.
    And having witnessed the tragedy of Columbine, we found 
that there was a tremendous need for more and vital 
information, not so much the communication, which has been 
filled rather effectively. We found that there was a lack of 
vital information available instantly to first responders in 
the event of an emergency within a facility.
    And, with that in mind, BeSafe Technologies was created and 
has been fostered and has grown as a result of working through 
broadband. And the availability of broadband to the first 
responder community is critically important, not only to the 
success of our small business but obviously to access for first 
responder communities throughout the United States.
    Using broadband, first responders can access this vital 
information on any building, any facility, getting aerial 
shots, building blueprints, contact information, all the vital 
information that may be necessary in those. As an example, 
Columbine, you all witnessed that, as we did Virginia Tech. 
Virginia Tech was over in nine minutes.
    Recognizing that fact, we have to have a delivery system 
that brings vital information quickly and is accessible to 
first responders in a timely fashion. And in many cases, it 
requires a great deal of bandwidth. Without broadband, BeSafe 
Technologies would be very limited.
    As a matter of fact, before we saw the expansion of 
broadband really taking effect and continuing to take effect 
across the country, we were a CD-ROM, paper-driven company. No 
longer. We invested significant dollars into developing our 
company and the accessibility to the Internet so that all first 
responders can have immediate access if and when they need it, 
also for preplanning and so forth, in the event of a bomb 
threat, a hazardous materials spill, any kind of an emergency, 
an earthquake, any emergency in places where large numbers of 
people might congregate.
    And we work with public and private institutions. We work 
with colleges, corporate, and government facilities across the 
country. And we provide all of the vital information. We work 
very closely with SWAT team members, police chiefs, fire 
chiefs, school departments, college administrators to make 
certain that what information is needed is there when it is 
needed.
    We also do very effective training. We try to do as much as 
we can in person. There is nothing better than a face-to-face 
meeting, where you can look somebody in the eye and talk to 
them effectively and train them.
    But I can tell you this. It's a large country. And what we 
are able to do through the use of broadband is train and 
effectively train first responders, thanks to the exposure of 
broadband across the country. That is something that we would 
hope continues to expand exponentially going forward in the 
future.
    In addition to that, we train hazmat teams, police teams. 
We do document management, all of these types of things that 
wouldn't be possible without this.
    And it really was the convergence of BeSafe and America's 
robust, high-speed broadband networks that make this all 
possible. Ten, 20 years ago what we are doing today wouldn't be 
possible. Therefore, I can't stress enough how important the 
expansion of broadband is to our business and other businesses 
throughout the country.
    We look to continue to invest in bringing our technology to 
the general public, to private and public entities, and 
continue to work as a small business. And our survival is 
really dependent on the continuing implementation of broadband.
    So, with that in mind--and I would speak to the fact that 
my first career, while it was in education, I'm talking and 
speaking to you today from Main Street of little America and 
asking that you do whatever you can to continue and support the 
growth of broadband in America.
    And I would ask you to carefully consider any burdens to 
small business. We are working extremely hard every day to 
improve the companies that we own and the lives of the people 
that we serve. And I would ask the members and thank you for 
listening to us, the people on the front lines, and hope for 
improved coordination and renewed growth in small business.
    [The statement of Mr. McDonald is included in the 
appendix.]

    Chairwoman Velazquez. Thank you, Mr. McDonald.
    And now the Chair recognizes Mr. Minnick for the purpose of 
introducing our next witness.
    Mr. Minnick. Thank you, Madam Chair.
    I appreciate the opportunity to be able to come before this 
Committee today to introduce a remarkable young woman, who is 
from my district, Ms. Lindsay Dofelmier.
    As the former CEO of two Idaho-headquartered businesses, I 
am proud to present Lindsay as a tremendous example of 
entrepreneurship and small business leadership in my home 
state. Her resume reads like a promising case study of what 
people who are smart, technologically advanced can do utilizing 
the latest broadband technology to create new business 
opportunity and more efficiency in the market.
    In her current capacity, Lindsay is the CEO of Urban Agent 
Team, a successful high-tech real estate brokerage firm 
headquartered in Boise, Idaho. As her testimony today will 
highlight, Lindsay has utilized broadband technology to 
establish her real estate companies and fuel her business, 
which has now grown into a three-state operation, operating 
also in our adjoining States of Oregon and Washington.
    I think her story is a remarkable example of what a 
generation younger than you and I and technically savvy can do 
with this new emerging technology to create new jobs and 
opportunity any place in America. New businesses depend upon 
broadband technology and other new innovations that simply 
break the model for how business is traditionally done.
    So I am very pleased to be able to introduce Lindsay to the 
Committee. I will warn you she speaks Japanese, but I suggested 
today it might be better to testify in English. I am proud to 
present Lindsay.

 STATEMENT OF LINDSAY DOFELMIER, CO-OWNER, URBAN AGENT TEAM LLC

    Ms. Dofelmier. Good afternoon. Chairwoman Velazquez, 
Ranking Member Graves, members of the Committee, as 
Representative Minnick said, my name is Lindsay Dofelmier. And 
I appreciate your invitation to testify today on behalf of my 
company: Urban Agent Team.
    Representative Minnick, I would also like to thank you very 
much for taking time out of your busy schedule to introduce me 
to the Committee. I follow your career, and I appreciate all of 
your efforts on behalf of small business in Idaho.
    As Representative Minnick said, my company, Urban Agent 
Team, began in Idaho. It began when I learned that the average 
relator was a 51 year-old female. I had a hunch that the echo-
boomer demographic was under-served and under-represented in 
the real estate industry. As a result, I began targeting this 
demographic.
    Echo boomers, also known as Gen Y, Millennials, or the Net 
Generation, are the children of baby boomers. There are 
approximately 80 million of us between 15 and 33 years old, 
making us second in size only to the baby boomers and by some 
estimations larger.
    We are a well-informed media and tech-savvy generation that 
grew up with computers and the Internet, both at home and in 
school. Thanks to the Internet, the world has been at our 
fingertips for most, if not all, of our lives.
    With vast amounts of information only a click away, we are 
well-versed in technology, culturally literate, informed on 
world affairs, and poised to revolutionize the economy.
    Urban Agent Team speaks to this demographic. We are a 
company of Millennials, for Millennials, and by Millennials. 
With offices in Boise, Seattle, and Portland and frequent 
travel among these cities, constant connectivity to wireless or 
mobile service is absolutely essential.
    Access to the Internet is our business. Without the 
existence of broadband and social media, Urban Agent Team would 
not exist. With agents throughout the Northwest, the ability to 
collaborate and communicate instantly and effectively is the 
foundation for our business. In order to do this, we use a 
variety of Internet-based, cloud-computing programs daily. We 
manage our company domain and meet our IT needs with Google 
Apps.
    With access to online e-mail, documents, and the ability to 
manage and view one another's calendars, we are freed from the 
constraints of hard drive-based applications and can 
collaborate virtually.
    We have our weekly team meetings via Skype, use Dropbox for 
online file storage, send and receive files via Sendspace, 
manage our cash flow with Google Docs, and run our finances 
with Quickbooks Online. With Google Alerts, I know whenever 
someone anywhere in the world uses our company name or one of 
our agents' names in an article or post on the Internet. With 
the click of a button on our iPhones or laptops, we can access 
any contract, one another's calendars, or chat from any 
wireless access point.
    The use of technology in our business is not limited to the 
back end, however. A majority of the online tools we use are 
aimed at our clients. With the versatility and mobility of the 
HP Mini, our customers are only a click away, even on the road.
    We use a variety of other programs, such as YouTube, Google 
Maps, IDX Broker, and MailChimp, to communicate with and 
advertise for our clients. We depend on the Internet and 
connectivity for day-to-day operations.
    Due to the instant gratification of the Internet, today's 
highly connected consumer demands an immediate response. In 
order to provide better service than our competitors, we must 
oblige.
    Our clients can e-mail, text, or use social media to 
contact us during traditional post-work hours. Our ability to 
quickly respond to such requests increases our conversion rates 
and overall customer satisfaction.
    In an era of information overload, we have captured and 
held our client's attention by recognizing and exploiting an 
under-served niche market. Rather than trying to be everything 
to everyone, we have specialized our business strategy.
    Our approach to how we present ourselves and how we have 
positioned our brand is unorthodox and embodied by our motto, 
``We're not your parents' real estate company.''
    We don't span the digital divide, as our clientele tend to 
be young, tech-savvy, educated, and diverse. As such, they 
connect with our honest, straightforward brand.
    Through the use of a variety of social media platforms, we 
have been able to build our brand identity, capture new leads, 
make friends in new markets, keep our followers up-to-date on 
our whereabouts, and maintain strong relationships with people 
we see infrequently. With social media, we can connect with 
like-minded individuals in other cities, states, and even 
countries.
    Twitter has been the bread and butter of our growth. Since 
joining Twitter two years ago, we have amassed a following of 
4,500 users, most of whom we did not know prior to Twitter and 
many of whom we have yet to meet. In 2010 alone, we have gained 
12 clients as a result of Twitter. The best part is the bulk of 
these programs are open-source and free.
    As a small business founded during the recession, watching 
the bottom line with hawkish eyes has been key to our survival. 
We are a virtual company with no brick-and-mortar offices. The 
Internet has allowed us, instead, to create our office online, 
thereby saving us tens of thousands of dollars a year.
    Our online presence functions as a storefront, business 
center, and property search. In addition to office rent 
savings, the Internet has allowed us to cut our costs with 
access to a multitude of free tools, by consolidating positions 
and allowing for virtual assistance. As a result, we can grow 
regionally without the traditional costs associated with such 
expansion.
    Instead of investing in offices, redundant support staff, 
hardware, and software, we have invested in growth. The 
monetary savings the Internet has provided us has fueled such, 
allowing us to successfully compete with much larger and more 
traditionally managed companies within our industry.
    I can confidently say that the success that we have 
achieved is a direct result of our ability to access broadband. 
This is why the National Broadband Plan and digital literacy 
efforts aimed at small businesses are causes that I feel 
passionately about.
    A generation of tech-savvy entrepreneurs with broadband 
access will fuel job creation and economic growth. The Internet 
puts knowledge in the hands of the user. And we all know that 
knowledge is power: power to learn, power to think, and power 
to create.
    The goals of the National Broadband Plan summarized as 
access, speed, affordability and clean energy are laudable 
goals that every American should embrace.
    The fact that we as a nation are already trailing other 
countries in this arena is of great concern to me for the 
future of our economy. I truly believe that without the 
Internet, the potential for small businesses to successfully 
grow to medium and large businesses would be far more 
difficult.
    On behalf of myself and everyone at the Urban Agent Team, I 
thank you again for your time.
    [The statement of Ms. Dofelmier is included in the 
appendix.]

    Chairwoman Velazquez. Thank you.
    If I may, I would like to address my first question to 
Messes. Burfield and Whisenant. The National Broadband Plan 
outlines recommendations on how the federal government can 
utilize broadband. It seems to us that it will require a 
public-private partnership. Can you talk to us about the role 
that small businesses will play in ensuring governments harness 
the power of broadband?
    Mr. Burfield. Thank you, Chairwoman.
    I mean, I think, as I laid out in my initial testimony and 
as Mr. Whisenant addressed, you know, the power of broadband to 
impact the way that government operates, a Government 2.0 
revolution, if you will, that allows the representatives in 
this room to connect in a much more direct and meaningful way 
to citizens allows citizens to connect to the actual data and 
underlying information that tells them what their government is 
actually doing, you know, I believe that is critically 
important to our government, to democracy in this country. And 
I think it is driven by cheap, pervasive, affordable access to 
broadband, wherever you happen to be in this country.
    In terms of the roles of small business in driving this 
Government 2.0 revolution, I believe it is very, very critical 
that there is an open playing field for small businesses to 
access and drive this kind of innovation.
    You know, there is a natural tendency for large, entrenched 
businesses to want to shape the playing field in a way that 
dictates disruptive innovation on their timeline and on their 
terms.
    You know, broadband affords access for small businesses to 
come in and drive innovation and government at a much more 
rapid pace and in a much more meaningful way. And I think that 
any policies that support making that access as open as 
possible to small businesses is going to be good for citizens, 
good for small businesses, and good for our economy and 
democracy.
    Chairwoman Velazquez. Do you see any barriers preventing 
small businesses from getting contracts in this arena?
    Mr. Burfield. Well, obviously from my perspective, we were 
able to win a pretty meaningful and substantial contract to 
implement, for example, Recovery.gov. You know, with that said, 
the way that contracting with the government is often set up, a 
lot of those opportunities don't end up becoming available for 
full and open competition.
    Recovery.gov was a situation where Congress had dictated 
that the platform had to be implemented very quickly with some 
very aggressive requirements. And the administration felt that 
they needed to go out and find the most innovative, best 
companies out there possible. And it was, in fact, an open 
competition. We had one week to respond to it.
    That is not always the case. A lot of these systems are 
ending up going to the entrenched incumbent contractors, which 
are often large businesses that have little incentive to offer 
the kind of highly innovative approaches that we provided with 
Recovery.gov.
    Chairwoman Velazquez. Mr. Whisenant?
    Mr. Whisenant. Yes. Thank you.
    Chairwoman Velazquez. Thank you.
    Mr. Whisenant. I think we could use some overhaul. I feel 
as a small business distinctly disadvantaged in the purchasing 
process, actually, because it is so burdensome. And I don't 
think it is necessary as much as it probably used to be.
    On the open government, making sure that government is 
using it, I think the technology is going to invite people to 
organize better and more innovation to come out of that. And I 
think it is really a question of political leadership more than 
it is of technical capability.
    I think the administration certainly has been pushing for 
government to leverage these networks and to use broadband and 
other technologies in innovative ways. I think there is an 
opportunity for legislative leadership as well. And there is 
plenty of ground to cover that would benefit both government 
and small business.
    Chairwoman Velazquez. Thank you.
    Mr. Messere, last week the FCC announced a new framework to 
preserve an open Internet. In your opinion, what would the 
preservation of an open Internet mean for the growth of the 
green technology start-ups that you work with?
    Mr. Messere. Thank you very much for the question. And it 
is an interesting one. The framework itself represents a 
difference, I guess, in understanding about what the FCC can 
regulate. That specifically opens up the doors for a change. 
And so it will be interesting to see how that will work.
    The Internet essentially is two parts. And from our 
perspective, there is the ability to communicate over the 
Internet, which is the connection, if you will, and then there 
is the content. And so these two things are partly a part of 
that challenge.
    From our perspective, the most important thing is the 
ability to have connective connections, if you will, between 
any one of our offices, between any one of our employees. And 
this supplies globally So from our perspective, that is the 
most important thing.
    To make it really simple, if you look at each one of our 
employees as a virtual point of access on the 'net, each one of 
those has a broadband provider. And each one of those providers 
generally provides a similar platform. But if they don't, if 
it's unique and if there are uniquely different things that 
don't share commonality between them, it means that essentially 
we would no longer be able to use some of the tools we use.
    So imagine if we couldn't use Skype, which is a 
telecommunications technology that acts like a phone. It is 
vitally important for some of our members to be able to use 
Skype to communicate. And if their broadband provider were 
limiting those functions, that would be a problem.
    So our greatest interest is in maintaining and having 
access to a common set of connectivity. And the content itself 
isn't meant to be part of that challenge, but I can understand 
how the FCC is facing that.
    Chairwoman Velazquez. Thank you.
    Mr. McDonald, I represent New York. Coming from New York, I 
am very much concerned about improving emergency communication 
with our first responders. You spoke about that and the 
services that you provide through your company.
    And so, as we know, first responders have traditionally 
relied on paper blueprints--
    Mr. McDonald. Yes.
    Chairwoman Velazquez. --to navigate a building. You say how 
important it is to move this information to the Internet. And 
we all know that it really enhances public safety.
    My concern or my question is, how do you balance this 
benefit with ensuring that what is web-based data is kept safe 
and secure?
    Mr. McDonald. Excellent question and one that we face every 
day. Let me start by saying yes, we do rely heavily on the 
Internet and access for that for a variety of reasons, which I 
will speak to in a moment.
    First of all, let's be clear. I know students who have been 
able to crack almost into the Pentagon. So I am not going to 
tell you that they can't get into almost anything. Having said 
that, we put countless amount of time and energy and resources 
into ensuring the security of our system.
    And the other thing, based on the way we have set up our 
network and accessibility is obviously there is extremely 
redundancy to what we do. It's backed up. It's supported. It's 
password-protected and so forth. And there are firewalls and 
other kinds of safety systems built into what we do.
    I also will tell you that most police departments still do 
rely on paper and CD-ROM. The fact of the matter is we provide 
it in paper and CD-ROM. But as soon as you publish a paper 
product that is in the hands of a first responder and the 
person who is managing that facility's cell phone number 
changes, that information is now outdated.
    And that lack of clarity in the information you have in 
front of you could be the difference in responding effectively 
or not. And so, like everything in life, you need a balance. 
And here you need a balance of the three, you know, low-tech, 
mid-tech, and high-tech.
    Broadband brings the high-tech capability to what we do. 
It's vitally important because what happens now is if your cell 
phone number changes, that is updated immediately. And the 
system already immediately generates an e-mail to all people in 
the system who have access, keeping them posted on any changes. 
So vital information, timely information is important.
    Chairwoman Velazquez. Thank you.
    Mr. Graves? Thank you.
    Mr. Graves. Thank you, Madam Chair.
    I want to talk about rural areas. And in terms of you might 
each speak to this and how it relates to your business, if it 
is not applicable, just say so, but what barriers have you seen 
in accessing customers in rural areas or expanding into rural 
areas? And what barriers are out there? What barriers are still 
out there or you have seen in the past?
    And also I am very curious to know if you think that is a 
growth area. Some folks would believe that moving modern 
technology or expanding broadband into rural areas is a waste 
of time and money, but I would be very curious.
    Mr. Burfield. You know, it is interesting. The lead of our 
visual design community, considered one of the foremost experts 
in the world on designing user experiences on Microsoft 
technology, actually lives in Laurens, South Carolina. And 
having gone down there and had dinner with her a few times, it 
is about as rural as you are going to get in South Carolina.
    She is able to access our team in Washington--we have 
resources in Taiwan, we have resources in India--nearly 
seamlessly because she does have access to broadband 
technology. She is on, as we have mentioned a number of times, 
Skype continuously video conferencing with a distributed team 
around the world.
    You know, I am not sure she would joined Synteractive if it 
meant leaving Laurens, South Carolina. The ability to have the 
kind of quality of life, the kind of community that is 
important to her, while still having access to a global team 
and working on global problems was highly meaningful to her. 
And it was highly meaningful to Synteractive.
    You know, that is not always the case. I have certainly in 
my travels been in any number of places where you can't get 
that same kind of access in rural America. And I think in order 
to continue to drive those kinds of economic opportunities, in 
order to continue to drive those kinds of employment 
opportunities, we do need to ensure that rural America has full 
access to broadband, preferably wirelessly.
    Mr. Graves. Mr. Messere?
    Mr. Messere. Yes. I would agree consistently with what has 
been put out there on this subject, which is that from our 
perspective, from our company's perspective, we have hired a 
number of people who could only have gotten access to our 
company with broadband in places that are quite remote as well 
also.
    I have a couple of employees in North Carolina. I have had 
employees in Texas. I have had employees in Nevada. So I have 
had employees that are in many places that are quite a bit far 
away from the central core center of business, where their 
ability to be able to work for us is completely enabled by the 
broadband access that they had.
    What our biggest concern and what has been a problem for us 
is when that broadband isn't strong enough and sometimes that 
is the case, we can't use some of the tools like Skype. Skype 
depends on some kind of strength of access, if you will. And 
when it's a little bit below that, it starts to fail, which 
anyone who has been on a bad cell phone call knows what that is 
like. So we try and avoid those kinds of things, but that is 
our biggest concern in order to use some of these technologies.
    As I said in our opening statements, my biggest concern is 
that is what we know of today. In five years' time, those 
technologies will continue to push forward. And we are really 
wanting to be able to make sure that all of our employees can 
stay with us.
    I can't imagine the heartbreaking conversation of having to 
lose an employee because they could no longer keep up with the 
technology. That would be a great and grave concern for us.
    Mr. Graves. Mr. Whisenant?
    Mr. Whisenant. In my circumstance, I don't know if there is 
a huge effect in the rural communities except that I think that 
if there is a gap, it is just going to get worse.
    One of the interesting thing about broadband and if there 
is a renewed investment in broadband is it will enable services 
that we can't even imagine. We can certainly think of common 
ones and obvious ones, like telepresence, remote medicine.
    These are services that if you have access to broadband, 
you will benefit from that. And I think rural areas will be 
increasingly disadvantaged and cut off from those educational 
and even, you know, telemedicine, those types of services that 
will grow and flourish over time.
    Mr. McDonald. Well, my sense is that broadband is 
expanding. First of all, it is vitally necessary in rural 
America. Take, for example, the incident that happened in Amish 
country. I mean, there are many rural spaces where information 
is vitally important.
    Bad things don't just happen in big cities, although they 
do happen in big cities. And so we need that access everywhere. 
But it is my belief and, from what I have read, that broadband 
is continuing to expand and is investing. There is significant 
investment going in every year to enhancing this implementation 
across the country as not only accessibility but also 
increasing speed of access, you know, the speed of an error.
    Those two things are very important to us as a company. And 
so I am heartened by the fact that I see broadband continuing 
to grow, continuing to be more accessible. We are not there 
yet, I don't think, but I am heartened by that. And I think 
that down the road if we continue on the plane that we are 
going, that we will arrive to where we need to go.
    And I would just caution that it is important that all of 
us in small business need to know the rules of the game moving 
forward, how things are going to work, what access people are 
going to have.
    When we go to put--and I will finish. Probably the limiting 
factor for us in rural areas is that police cruisers and so 
forth may not have laptop computers in their vehicles, may not 
have the connectivity there. That is something where I see 
necessary investment going forward.
    Mr. Graves. Ms. Dofelmier?
    Ms. Dofelmier. As a Westerner, this is something that is 
particularly important to me for two reasons. One, I grew up in 
the West. And, as you well can imagine, we have a lot of space 
out there, a lot of rural areas.
    Most of us that live in the cities in the West, we choose 
to live there for a lifestyle. So we like to go out and camp 
and fish and hunt and whatever it is that we all do. And 
telecommuting is essential to our businesses. So often, even if 
we do live in the cities in the West, we need to have access to 
our businesses when we are having our leisure time as well.
    Additionally, when I grew up in a small town in rural Utah, 
we were definitely at a disadvantage with the Internet. Only 
recently did my dad actually even have access to it. He had to 
get a satellite Internet at his home. So whenever I would go 
home to visit my family, I was effectively cut off from my 
business. And that is often how it is whenever I go on vacation 
or spend leisure time.
    So I think it is absolutely essential to Westerners, 
perhaps even more than in other areas of the country where 
there is greater connectivity.
    Mr. Burfield. Madam Chair?
    Chairwoman Velazquez. Mr. Altmire?
    Mr. Altmire. Thank you, Madam Chair.
    Mr. Messere, this is directed at you. Just for way of 
background, I am very interested in the export component of 
this. As you know, the U.S. Commercial Service was created 
specifically to help U.S. companies find international business 
partners in the worldwide marketplace. And one such example is 
in my district.
    I am familiar with Intake Process Group, which is a small 
business that designs web-based systems, controls for use in 
manufacturing. And it supports many larger customers, corporate 
folks that a lot of folks would know the names. And in western 
Pennsylvania, the U.S. Commercial Service has established an 
office to help companies such as Intake succeed.
    My question for you is, the administration, of course, has 
set this five-year goal to double U.S. exports. And I was 
wondering if you could discuss how technologies developed 
specifically by small U.S. firms can more effectively reach the 
global marketplace.
    Mr. Messere. Well, thank you. That is part of what our 
business is about. So it is sort of an opportune ability for us 
to address that specifically.
    Reaching out to international opportunities is really 
dependent on the most important part of their go-to-market 
strategy, which is what differentiates their product or 
service. And in what we are really seeing, especially in our 
area which I focus on sustainability, which is a lot about 
renewable energy and waste optimization, those types of things 
are--they have a global audience of possibilities in the 
market, but they have to be differentiated. And so what we have 
to do if we are going to help them is learn how to get that 
differentiation to be told.
    I think we have talked about some of the technologies right 
here at this table today. Certainly a website, as you know, is 
now a must-have for every business. In addition to that, we are 
starting to see a lot of technology along the areas of things 
like Twitter.
    Our company alone has over 7,000 people following us. And 
we have put very little effort into anything more than hanging 
a shingle up for that. And that has a global audience.
    As a result of that--and this is sort of getting to your 
point--in our example, we not only use Twitter, but Twitter 
actually points people back to our website, which then feeds an 
international audience of participants. On any given day, 
almost 60 percent of the people who visit our website are from 
offshore. So that is part of the solution.
    So it is telling a story; differentiating using the tools; 
and then, lastly, it is using those tools now to get to a 
market opportunity. And a company like ourselves, that is what 
we specialize in.
    So we use the broadband technologies now to connect 
directly to companies and services in foreign markets. So as we 
are working today, I am now setting up a New Zealand office 
that will allow us to have a beachhead in New Zealand, 
Australia, which will eventually get us Singapore, Hong Kong, 
et cetera. That is all, again, because of broadband technology.
    Mr. Altmire. Thank you.
    I wanted to switch subjects and talk to Ms. Dofelmier for a 
moment. You talked a lot about access to the Internet and how 
important broadband is. I wondered if you could talk about the 
fact that many small businesses report that the cost of 
broadband is a roadblock to the adoption of it. And I was 
wondering how the cost of broadband affects your business, in 
particular, and what advice you would have for us to help make 
it more cost-effective for small businesses.
    Ms. Dofelmier. Well, as was mentioned earlier, I mean, I 
think that having an equal playing field in terms of 
accessibility and speeds is really essential to small 
businesses because as a cost of service, as it exists now, you 
know, we are penalized if we don't have deep pocketbooks and we 
can't afford a fiber optic line. So if something goes down on 
the network or if our speeds are slow, we are crippled as we go 
along or we have to go to a coffee shop or try to find another 
network, particularly in our business, where we are always on 
the road and we are not always at our office or at our home 
with our speeds at home.
    So I think that, really, it is essential as more and more 
people choose to, particularly in the Millennial generation, 
work for themselves or choose to telecommute for the lifestyle, 
that having access anywhere and having equal speeds of service 
is just really--without that is a severe disadvantage to our 
businesses.
    Mr. Altmire. No further questions.
    Chairwoman Velazquez. Ms. Dahlkemper?
    Ms. Dahlkemper. Thank you, Madam Chair. Thank you to our 
witnesses here today for your testimony.
    I am actually from just a little north of Mr. Altmire, in 
northwestern Pennsylvania, very rural area except for basically 
the town I am from, Erie. And so throughout those counties, 
Erie County, Warren County, Crawford County, we have several 
small telecommunications companies that have strategies to 
deploy broadband in these rural, under-served areas of my 
district.
    As you all testified, you know how important it is to have 
access to those businesses. Unfortunately, many of these small 
broadband companies are not able to access capital. And they 
are as fully leveraged as possible. They applied for some of 
the recovery funds, and they didn't receive any.
    So I want to know if you have any suggestions for these 
small companies like those in my district. They are having 
trouble accessing that traditional capital and also are not big 
enough to compete for some of these government loans that are 
out there.
    I don't know who would like to answer that question. Anyone 
have a thought on that?
    Mr. McDonald. If I had all the answers to that, I would 
probably be sitting in Hawaii doing this over the Internet. But 
the fact of the matter is capital is restricted today. There 
are challenges to that.
    But having said that, I think you simply--you know, you 
have to start small. And you just have to grow in steps. You 
have to take steps. And so perhaps you can't get a million 
dollars or two million dollars, but maybe there are ways to 
bring in private investment.
    You know, my experience is having experiences myself, if 
you have a good idea, there are angel investors. There are 
other investors out there who will be willing to take a risk 
and work with you.
    It comes down to having the right idea, the right place, 
the right implementation. And I think anyone is doable. And so 
I wouldn't simply want to rely--although I am not opposed to 
government loans, loans are not my favorite thing because with 
that comes the repayment. And, you know, as a result of that, 
my take is I would rather bring investment in from the private 
sector to help us grow if and when the time is right.
    And so I think if I were to advise them, I would say put 
together your business plan and go out there and look for some 
private investors to help you with that so you can grow because 
there is no question in areas of Pennsylvania as well as 
elsewhere that access to broadband by the rural communities is 
extremely limited and extremely important.
    Ms. Dahlkemper. Mr. Messere?
    Mr. Messere. Yes. Actually, I will jump in as well. I mean, 
again, sort of what our business is about is helping companies 
get to market and figure out where they can grow their sales 
revenue.
    I think in this case, it comes down to a matter of mapping 
out the potential. So if they are looking at a market in a very 
specific place, they really have to have a good idea of how 
many people would purchase the service, at what price point is 
it cost-effective and, most importantly, competitive. Are there 
alternatives to that solution?
    As was pointed out, there are technologies that include 
satellite technologies. So those are kind of the fundamentals 
to start them off on that. And I might also recommend if they 
have a higher education institution that you can access when in 
your district or close to your district, maybe working with 
some of the folks there and getting them together to have them 
work through this idea of how do you write a business plan, how 
do you learn how to figure out how many clients are there in 
this business because it has to be cost-effective.
    And one of our roles in doing sustainability is always 
about that profitability drives the issue of innovation.
    Ms. Dahlkemper. Mr. Burfield?
    Mr. Burfield. I would also think that in situations like 
that, perhaps not focusing on traditional broadband but 
focusing on wireless broadband is a key innovation.
    I have also been pleasantly surprised by where you are able 
to get broadband access in America, but I have been absolutely 
stunned by the quality and access of wireless broadband in 
other parts of the world.
    My wife and I were in India late last year. And she had 
intentionally found the backwaters of southern India to be the 
farthest possible place so that she wouldn't have to deal with 
my iPhone anymore. And we were on a boat. And you couldn't see 
anything but rice paddies as far as the eye could see.
    And then my iPhone went off. And I ended up being able to 
download a series of documents at pretty amazing speeds from my 
iPhone to my computer to solve the problem. And I could not see 
a human, again, as far as the eye could see.
    If you can make it profitable to do that in the rice 
paddies of India, my sense is there is a business model, 
although it might not look traditionally like digging channels 
and laying broadband fiber optics, that can be profitable in 
Pennsylvania.
    Ms. Dahlkemper. Thank you. Thank you all. I yield back.
    Chairwoman Velazquez. Okay. I do have another question 
before we adjourn. I hear every one of the witnesses saying how 
important broadband is for small businesses to grow their 
businesses.
    However, we all know that small businesses not only face 
the economic constraints that they are facing to develop a 
presence online. So how would you advise small business seeking 
to harness broadband to grow their business? And what role 
should Congress and the FCC play in promoting broadband 
adoption by small firms? And I will start with Ms. Dofelmier, 
if you can.
    Ms. Dofelmier. Absolutely, Madam Chair. I think that, 
really, what is essential is education. I know that Congress is 
working on that right now with digital literacy efforts aimed 
at small businesses.
    I think, particularly in minority and under-represented 
communities, that that is something that is going to be very 
important in promoting the adoption of broadband. Really, it 
is, even when we have new members that join our team, a lot of 
times their eyes get big, even if they're in their early 20s, 
and they just say, ``How do I use all of these tools? How can I 
use them to build my business within your company?''
    And so we have to sit down with them and just coach them 
through it. And as soon as they realize the potential, they are 
off and running. And I think it really just centers around 
education. And it doesn't matter your age or your background. 
It just takes a little bit of coaching and some effort. And 
there are so many tools out there to help you grow your 
business.
    You just have to Google. If you need something free, like a 
free, open source software program, because you're strapped 
financially, you just have to know what to look for and you can 
find it.
    Chairwoman Velazquez. Any other of the witnesses want to 
comment? Yes?
    Mr. McDonald. Just a quick comment. I would urge Congress 
to think through carefully what it is going to do. I would 
suggest--and I have seen too often, not just in Congress but 
everywhere. We don't want today's solutions to cause tomorrow's 
problems.
    I think that broadband is expanding. And I think that I 
would just urge that we make it, as I said earlier, that the 
rules of the road are clear and there is not confusion over the 
next few years, which I think could stifle, has the potential 
to stifle, what is an opportunity to expand this successfully 
in a partnership that will work.
    Chairwoman Velazquez. Yes, Mr. Messere?
    Mr. Messere. Also continuing on that exact same point, as 
it relays both in small businesses starting their process and 
in companies that have established their process, absolutely 
correct. We plan for the future based on what we know today.
    And if we build a business and the profitability of that 
business around expectations of access to broadband and that 
isn't going to be the case in the future, it could be very, 
very difficult. And it can end a good entrepreneurial run.
    Chairwoman Velazquez. Mr. Burfield?
    Mr. Burfield. Yes. I mean, to echo two key themes, we have 
used the phrase I think throughout this that ``Broadband is 
like the national highway system'' or ``Broadband is like the 
electrical grid.'' And in many ways, particularly when you move 
outside of major metropolitan areas, it is kind of a natural 
monopoly.
    As an economist, there is often a critical role for 
government to play in facilitating the creation of those 
situations. But there is a tremendous risk for unintended 
consequences around technologies that will be used on broadband 
that haven't even been imagined yet. I think, as government 
explores the right role to play, caution is important.
    And then I think going back to the second theme, you know, 
education is a tremendous part of this. For capital-constrained 
small businesses, part of the answer is not to focus so much on 
capital. It is to focus on what can you do with the capital 
that you have using the free tools that are out there.
    But there is absolutely a digital divide that is growing 
between people who understand how to pull together hand weave 
together these incredibly powerful, inexpensive solutions and 
those people who don't. Any sort of effort in terms of 
improving that kind of education and how to use these tools I 
think would be critical for our economy.
    Chairwoman Velazquez. Thank you all. This has been quite an 
interesting discussion. And, for this Committee, it is an 
important one. If we want to provide the tools for small 
businesses to continue to grow, this is key. So I thank you 
all.
    I ask unanimous consent that members will have five days to 
submit a statement and supporting materials for the record. 
Without objection, so ordered.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 2:11 p.m., the foregoing matter was 
concluded.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 <all>

</pre></body></html>
